<html>
<title> - EXTREMIST MADRASSAS, GHOST SCHOOLS, AND U.S. AID TO PAKISTAN: ARE WE MAKING THE GRADE ON THE 9/11 COMMISSION REPORT CARD?</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
 EXTREMIST MADRASSAS, GHOST SCHOOLS, AND U.S. AID TO PAKISTAN: ARE WE 
          MAKING THE GRADE ON THE 9/11 COMMISSION REPORT CARD? 

======================================================================= 


                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY
                          AND FOREIGN AFFAIRS

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 9, 2007

                               __________

                           Serial No. 110-17

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                     http://www.oversight.house.gov




                     U.S. GOVERNMENT PRINTING OFFICE

37-093 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001

             COMMITTEE ON OVERSISGHT AND GOVERNMENT REFORM

                 HENRY A. WAXMAN, California, Chairman
TOM LANTOS, California               TOM DAVIS, Virginia
EDOLPHUS TOWNS, New York             DAN BURTON, Indiana
PAUL E. KANJORSKI, Pennsylvania      CHRISTOPHER SHAYS, Connecticut
CAROLYN B. MALONEY, New York         JOHN M. McHUGH, New York
ELIJAH E. CUMMINGS, Maryland         JOHN L. MICA, Florida
DENNIS J. KUCINICH, Ohio             MARK E. SOUDER, Indiana
DANNY K. DAVIS, Illinois             TODD RUSSELL PLATTS, Pennsylvania
JOHN F. TIERNEY, Massachusetts       CHRIS CANNON, Utah
WM. LACY CLAY, Missouri              JOHN J. DUNCAN, Jr., Tennessee
DIANE E. WATSON, California          MICHAEL R. TURNER, Ohio
STEPHEN F. LYNCH, Massachusetts      DARRELL E. ISSA, California
BRIAN HIGGINS, New York              KENNY MARCHANT, Texas
JOHN A. YARMUTH, Kentucky            LYNN A. WESTMORELAND, Georgia
BRUCE L. BRALEY, Iowa                PATRICK T. McHENRY, North Carolina
ELEANOR HOLMES NORTON, District of   VIRGINIA FOXX, North Carolina
    Columbia                         BRIAN P. BILBRAY, California
BETTY McCOLLUM, Minnesota            BILL SALI, Idaho
JIM COOPER, Tennessee                ------ ------
CHRIS VAN HOLLEN, Maryland
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
JOHN P. SARBANES, Maryland
PETER WELCH, Vermont

                     Phil Schiliro, Chief of Staff
                      Phil Barnett, Staff Director
                       Earley Green, Chief Clerk
                  David Marin, Minority Staff Director

         Subcommittee on National Security and Foreign Affairs

                JOHN F. TIERNEY, Massachusetts, Chairman
CAROLYN B. MALONEY, New York         CHRISTOPHER SHAYS, Connecticut
STEPHEN F. LYNCH, Massachusetts      DAN BURTON, Indiana
BRIAN HIGGINS, New York              JOHN M. McHUGH, New York
                                     TODD RUSSELL PLATTS, Pennsylvania
                       Dave Turk, Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 9, 2007......................................     1
Statement of:
    Kojm, Christopher, president of the 9/11 Public Discourse 
      Project and Deputy Director, 9/11 Commission; Samina Ahmed, 
      South Asia project director for the International Crisis 
      Group; Lisa Curtis, senior research fellow, South Asia, 
      Asian Studies Center, the Heritage Foundation; and Craig 
      Cohen, deputy chief of staff, and fellow, Post-Conflict 
      Reconstruction Project, International Security Program, at 
      the Center for Strategic and International Studies.........    15
        Ahmed, Samina............................................    23
        Cohen, Craig.............................................    41
        Curtis, Lisa.............................................    32
        Kojm, Christopher........................................    15
Letters, statements, etc., submitted for the record by:
    Ahmed, Samina, South Asia project director for the 
      International Crisis Group, prepared statement of..........    26
    Cohen, Craig, deputy chief of staff, and fellow, Post-
      Conflict Reconstruction Project, International Security 
      Program, at the Center for Strategic and International 
      Studies, prepared statement of.............................    43
    Curtis, Lisa, senior research fellow, South Asia, Asian 
      Studies Center, the Heritage Foundation, prepared statement 
      of.........................................................    35
    Kojm, Christopher, president of the 9/11 Public Discourse 
      Project and Deputy Director, 9/11 Commission, prepared 
      statement of...............................................    18
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut, prepared statement of............    13
    Tierney, Hon. John F., a Representative in Congress from the 
      State of Massachusetts, prepared statement of..............     6


 EXTREMIST MADRASSAS, GHOST SCHOOLS, AND U.S. AID TO PAKISTAN: ARE WE 
          MAKING THE GRADE ON THE 9/11 COMMISSION REPORT CARD?

                              ----------                              


                         WEDNESDAY, MAY 9, 2007

                  House of Representatives,
     Subcommittee on National Security and Foreign 
                                           Affairs,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m. in 
room 2154, Rayburn House Office Building, Hon. John Tierney 
(chairman of the subcommittee) presiding.
    Present: Representatives Tierney, Lynch, Higgins, Yarmuth, 
Braley, McCollum, Van Hollen, Welch, Shays, Platts, 
Westmoreland, McHenry, and Foxx.
    Staff present: Leneal Scott, information systems manager; 
Dave Turk, staff director; Andrew Su, professional staff 
member; Davis Hake, clerk; Andy Wright, counsel; A. Brooke 
Bennett, minority counsel; Grace Washbourne, minority senior 
professional staff member; Nick Palarino, minority senior 
investigator and policy advisor; Benjamin Chance, minority 
clerk; and Dawn Hu, minority intern.
    Mr. Tierney. Good morning. A quorum is present and the 
Subcommittee on National Security and Foreign Affairs' hearing 
entitled, ``Extremist Madrassas, Ghost Schools, and U.S. Aid to 
Pakistan: Are We Making the Grade on the 9/11 Commission Report 
Card'' will come to order.
    I ask unanimous consent that only the chairman and ranking 
member make an opening statement. Without objection, so 
ordered.
    I ask unanimous consent that the hearing record be kept 
open for 5 business days so that all members of the 
subcommittee be allowed to submit a written statement for the 
record. Without objection, so ordered.
    I ask unanimous consent that the following written 
statement be placed into the hearing record: Professor Husain 
Haggani, director of the Center for International Relations and 
associate professor of international relations at Boston 
University, as well as the former Pakistan ambassador to Sri 
Lanka. Without objection, so ordered.
    With all that business out of the way, good morning to our 
witnesses, and thank you for your participation and your 
assistance here today, Mr. Shays.
    America awoke to a new and terrible chapter in our history 
on September 11, 2001. We watched in horror as the Twin Towers 
disintegrated, as a Pentagon wing collapsed in flames, and as a 
Pennsylvania field smoldered with wreckage. Every American 
knows with clarity where he or she was on that morning.
    Today, more than 5\1/2\ years later, the National Security 
Subcommittee begins a series of hearings asking whether the 
United States has an effective, long-term strategy for 
confronting international terrorism.
    We will begin with the 9/11 Commission, whose report 
cautioned us of a ``generational struggle'' whose ``long-term 
success demands the use of all elements of national power: 
diplomacy, intelligence, covert action, law enforcement, 
economic policy, foreign aid, public diplomacy, and homeland 
defense.''
    The 9/11 Commission also warned that ``[i]f we favor one 
tool while neglecting others, we leave ourselves vulnerable and 
weaken our national effort.'' The Commission stressed the 
importance that any offensive efforts ``be accompanied by a 
preventative strategy that is as much, or more, political as it 
is military.''
    So let's now ask the question: how are we doing.
    Today we are going to explore U.S. policy toward Pakistan, 
its radical religious schools known as madrassas, and its 
dysfunctional education system and what impact this has on 
long-term national security.
    The 9/11 Commission had some specific advice with regard to 
Pakistan, stressing ``[i]t is hard to overstate the importance 
of Pakistan in the struggle against Islamist terrorism,'' 
pointing out that ``[a]lmost all of the 9/11 attackers'' spent 
some time in Pakistan and ``traveled the north-south nexus of 
Kandahar-Quetta-Karachi,'' and warning of Pakistan madrassas 
that ``have been used as incubators of violent extremism.''
    The 9/11 Commission urged the U.S. Government to ``support 
Pakistan's government in its struggle against extremists with a 
comprehensive effort that extends from military aid to support 
for better education, so long as Pakistan's leaders remain 
willing to make difficult choices of their own.''
    In December 2005, the 9/11 Commission's Public Discourse 
Project issued a report card that is reflected on the screen to 
the sides of the room. As you can see, we got a C+ for our 
efforts in supporting Pakistan against extremists. The report 
card notes: ``U.S. assistance to Pakistan has not moved 
sufficiently beyond security assistance to include significant 
funding for education efforts. Musharraf has made efforts to 
take on the threat of extremism, but has not shut down 
extremist-linked madrassas or terrorist camps. Taliban forces 
still pass freely across the Pakistan-Afghanistan border and 
operate in Pakistani tribal areas.''
    This, despite the fact that President Musharraf has 
repeatedly promised to crack down on extremist madrassas. In 
2003 he stated, ``We must finish off religious extremism. . . . 
We must not use the mosques to spread hatred.'' In January 
2005, he said, ``[t]he use of mosques and seminaries as 
producers of hate and extremism must be stopped.'' And in 
August 2005, President Musharraf said, ``[W]e will not let any 
madrassa harbor terrorists or teach extremism and militancy.'' 
But the madrassas remain to this day.
    Here is a clip of a recent Frontline show entitled, 
``Return of the Taliban.''
    [Film clip shown.]
    Mr. Tierney. Last month, I led a congressional delegation 
to Pakistan and Afghanistan with subcommittee members Betty 
McCollum and Patrick McHenry, as well as the Education and 
Labor Chairman George Miller. In Afghanistan, senior United 
States, NATO, and Afghan military officials told us of their 
forces being continually attacked by Taliban foes who plan and 
stage their insurgent operations in Pakistan before pouring 
across the border to kill our troops.
    But if we think these Pakistani breeding grounds of terror 
only threaten Afghanistan, we need to think again. The 2005 
London subway terrorist bombings involved at least one British 
national trained in a Pakistani madrassa.
    And just last week terrorists were convicted in the United 
Kingdom in a conspiracy to conduct an attack there with 
fertilizer-based bombs. Five of the seven men tried attended 
either madrassas or training camps in Pakistan. Yet, these 
extremist madrassas remain open for business.
    This is a picture of a madrassa that is just outside of 
Islamabad. As we sit here in this hearing room today, madrassas 
affiliated with the Red Mosque in Islamabad continue to flout 
Pakistani national laws by squatting on national land. They 
harbor foreign terrorists. They move large numbers of burga-
clad women into the compound as protection. They establish 
religious vigilante raids on shopkeepers and assault and kidnap 
indecent--or what they term indecent--women.
    These madrassas have threatened a campaign of suicide 
bombings if they don't get their way.
    This picture of the Red Mosque madrassa students burning 
books, CDs, and DVDs was taken just 2 days after our 
Congressional delegation left Pakistan. During our stay we were 
told of women in Islamabad having acid doused on their faces 
for failure to wear burgas and harassment of women who were 
just driving cars. And we saw first-hand, billboards in which 
women's facial images had been ripped away because of their so-
called immodesty.
    The extremists once confined to the outer reaches of 
Pakistan are bringing their venom right into the heart of 
Pakistan's manicured capital. Last week our own State 
Department concluded ``Pakistan remains a major source of 
Islamic extremism and a safe haven for some top terrorist 
leaders.''
    Extremism and Jahadi curriculum in madrassas is only one 
side of the problem, however, as Pakistan's public school 
system has utterly failed to provide a viable alternative for 
millions of poor Pakistani families.
    In December 2005 the 9/11 Commission gave the U.S. 
Government a D grade for not doing enough to support secular 
education in Muslim countries. The report card warned; ``The 
U.S. has no overarching strategy for educational assistance and 
the current level of education reform funding is inadequate.''
    The United States also received a D for funding educational 
and cultural exchange programs designed to foster mutual 
understanding between the United States and Muslim countries. 
The grade specifically notes recent closures of American 
libraries in Pakistan.
    There is a bar chart that we would like to show at this 
time. This chart compares our Pakistan education assistance aid 
versus our military support. I know it is hard to see the bar 
for education funding because it is 15 times less than what we 
are spending on military funding.
    Remember that the 9/11 Commission spoke of the need to use 
all the tools in our toolbox, and of the need in Pakistan 
specifically for a comprehensive effort that extends from 
military aid to support for better education.
    But in its latest budget submission the administration has 
requested a 33 percent funding cut for Development Assistance 
to Pakistan, a category that includes funding for basic 
education programming.
    Here is the scope of the problem that we are up against: 
UNICEF estimates that some 13 million 5 to 9 year old children, 
out of 27 million total are not enrolled in school at all. That 
is nearly half of all Pakistani kids. And of those students who 
are enrolled, approximately half of them will drop out before 
completing primary education.
    Looking at the scope of the problem, the 9/11 Commission's 
Vice Chairman Lee Hamilton characterized our education aid 
level as a ``drop in the bucket.'' A recent Washington 
Quarterly article co-authored by one of today's witnesses put 
it this way: The United States is spending a scant $1.16 per 
child per year for more than 55 million school-aged Pakistani 
children.
    Pakistan, itself, only spends a minuscule 2 percent of its 
gross domestic product on education. The United Nations 
Educational, Scientific and Cultural Organization recommends at 
least 4 percent. Untrained, unmotivated, and absenteeism-
plagued teachers have led to the phenomenon of the so-called 
``ghost schools,'' where a building sits idle and filled with 
students chaperoned by minders instead of educators.
    All of us hope to support Pakistan and its people in their 
efforts to achieve for themselves a stable, prosperous, and 
free nation, but our national security interests and the future 
of Pakistani children is still more acute. Will we be safe over 
the next 5, 10, or 15 years as thousands--and perhaps 
millions--more children learn Jihad at extremist madrassas 
instead of learning real-world skills to become productive 
citizens in their own communities?
    The Pakistani people are treading water during a rising 
tide of extremism; a tide that threatens their society and 
their children's futures; a tide that exposes our soldiers in 
Afghanistan to attack; and a tide that threatens us here at 
home to a gathering, new generational wave of terror.
    In recent polling that has taken place, the view of the 
current U.S. Government by Pakistanis was viewed 15 percent 
favorably and 67 percent unfavorably. They thought that the 
United States was seeking to control world events and seeking 
to weaken and divide Islam and to spread Christianity at the 
expense of Islam. If you go on down into the different polling 
levels, you see the misperceptions exist in great number.
    As the 9/11 Commission warned in a world of great mobility 
and even greater weapons: ``the American homeland is the 
planet.'' We simply must follow the 9/11 Commission's sage 
advice to use all the elements of our power--including military 
might, of course, but public diplomacy, intelligence 
capabilities, and developmental assistance--to ensure that 
waves of terror never build and never crash again on our 
shores. That should be our job that is facing all of us here 
today.
    [The prepared statement of Hon. John F. Tierney follows:]
    [GRAPHIC] [TIFF OMITTED] 37093.001
    
    [GRAPHIC] [TIFF OMITTED] 37093.002
    
    [GRAPHIC] [TIFF OMITTED] 37093.003
    
    [GRAPHIC] [TIFF OMITTED] 37093.004
    
    [GRAPHIC] [TIFF OMITTED] 37093.005
    
    Mr. Tierney. Mr. Shays.
    Mr. Shays. Thank you very much, Mr. Chairman, for holding 
this hearing, and to our witnesses.
    Today the subcommittee examines education reform in 
Pakistan, as our chairman has pointed out. On the surface this 
may seem far removed from the corners of this subcommittee, but 
it is not. The government of Pakistan's success overriding the 
persuasion of Islamic extremism in its educational system 
directly affects national and international security. But as we 
go into this inquiry we must keep in mind the inherent 
limitations of U.S. policy and U.S. aid affecting dramatic 
cultural change.
    Education reform in Pakistan takes on two meanings: one, 
strengthening of the educational institutions; and, two, having 
influence over Islamic schools better known as madrassas. Both 
Presidents Bush and Musharraf have stated success in 
eradicating terror cannot be accomplished without dramatic 
improvement in Pakistan's education system.
    The problems affecting public education in Pakistan range 
from the lack of qualified teachers to the limited number of 
school buildings. In some of the less-developed regions, 
teachers serve as child minders or sitters, not educators. At 
the other end of the spectrum, in the earthquake-ravaged and 
economically depressed areas, there are no physical structures 
to accommodate school-aged children. An entire generation in 
Pakistan is suffering from inadequate public education 
opportunities. This void and, in some instances, financial 
hardship has led some families to send their children to one of 
the 12,000 tuition-free madrassas in Pakistan. The vast 
majority of these madrassas teach the fundamental tenets of 
Islam, but in many cases they lack a curriculum for science, 
math, and English.
    A minority of these madrassas are indoctrinating students 
with anti-western, pro-Islamic fundamentalist messages. It is 
these madrassas and Islamic extremists they beget which pose a 
serious threat to regional and international security. This is 
the life cycle of the terrorists. The first step is Islamic 
indoctrination. The next step is graduation to terror training 
camps, many of which have connections with Al Qaeda or Taliban. 
Next, they move across the porous Pakistan-Afghan border into 
Afghanistan to raid Jihad against Coalition forces.
    But that is not the only front for these Jihadists. The 
products of terrorist training camps have effected their terror 
in western venues, as well. It is known that terrorists 
responsible for the London underground bombing and the 
disrupted United Kingdom fertilizer bomb plot had links to or 
were trained in madrassas and terror training camps in 
Pakistan.
    Which cities and which innocent civilians will be the next 
victim of this terrorism?
    Pakistan has taken meaningful steps toward educational 
reform. After 9/11, President Bush and President Musharraf said 
education reform in Pakistan is a key to stemming the rise of 
Islamist extremism and the rise of global terrorism. President 
Musharraf is the first Pakistani leader in recent decades to 
take an unpopular stand against schools and the camps used to 
indoctrinate Pakistani youth with the principles of Islamist 
fundamentalism.
    In 2002, President Musharraf laid out a three-prong 
approach: one, requiring registration and inspection of these 
religious facilities; two, excluding foreigners from their 
religious schools; and, three, requiring madrassas accept 
National Education Board testing standards. But these reforms 
have been difficult to implement, not only because of a lack of 
governance capacity and oversight, but also because of 
institutional resistance by the religious sector.
    Critics say President Musharraf has done nothing to prevent 
the proliferation of the madrassas and effect meaningful 
reform. Other critics believe President Musharraf has provided 
lip service to the meaningful reforms he promised and has bowed 
to political pressure from Muslim political parties. And still 
others say Musharraf will continue to do the bare minimum to 
ensure continued unrestricted financial support from the United 
States.
    The bottom line is educational reform in Pakistan is 
happening. Neither President Musharraf's success in 
strengthening the education sector nor the successes of the 
U.S. Agency for International Government Lead Projects can or 
should be overlooked; however, substantial advancement still 
lies ahead, and our role as legislators is to assess this 
reform honestly, letting the chips fall where they may, and to 
determine where the United States must apply pressure to ensure 
successful and complete reform.
    We should not forget we need Pakistan's help in fighting 
terrorism. President Musharraf has accepted that mission. While 
there are great questions about President Musharraf's ability 
to confront madrassas, we must remain Pakistan's partner as it 
struggles to reform the one sector which assures the 
advancement and survival of their society: education.
    Mr. Chairman, I sincerely congratulate you and your staff 
on holding today's hearing. It is an opportunity for us to 
learn from our esteemed witnesses the status of Pakistan's 
education system, what accomplishments have been achieved, and 
the prognosis and path to eliminating the teachings of Islamist 
intolerance and fundamentalism.
    I thank our witnesses for being here today and look forward 
to their testimony. I also want to thank the U.S. Embassy in 
Islamabad, especially Charge d'Affaires, Peter Bodde, for 
making Ms. Ahmed's video testimony today possible.
    [The prepared statement of Hon. Christopher Shays follows:]
    [GRAPHIC] [TIFF OMITTED] 37093.006
    
    [GRAPHIC] [TIFF OMITTED] 37093.007
    
    Mr. Tierney. Thank you, Mr. Shays.
    The subcommittee will now receive testimony from the 
witnesses that are with us here today. I want to begin by 
introducing those witnesses.
    Mr. Christopher Kojm is the president of the 9/11 Public 
Discourse Project and was a Deputy Director of the 9/11 
Commission.
    Dr. Ahmed, I don't know if you can see us. I know our 
technology was having some bumps earlier, but we really are 
grateful for you to join us. It is 9 hours difference in time 
between here and your evening schedule over there. We really do 
appreciate your joining us via videoconference from Islamabad, 
Pakistan.
    We have Ms. Lisa Curtis, who is a senior research fellow 
for the Asian Studies Center at the Heritage Foundation.
    And we have Mr. Craig Cohen, who is the deputy chief of 
staff and fellow for the Post-Conflict Reconstruction Project 
at the Center for Strategic and International Studies.
    Thank all of you for your work on the subject and for 
sharing your expertise today.
    It is our policy on the subcommittee to swear in witnesses 
before they testify, so we are going to ask you to please rise 
and raise your right hands, as well as any persons who might be 
assisting you in your testimony and testifying today.
    [Witnesses sworn.]
    Mr. Tierney. The record will please reflect that the 
witnesses all answered in the affirmative, including Dr. Ahmed. 
Thank you very much.
    We have 5 minutes allotted for each of the statements. 
Obviously, we are not going to hold you exactly, strictly to 
the 5-minutes, but we do ask you to generalize your statements. 
Your statements will be placed in the record by unanimous 
consent in their entirety, and we do want to get to questions 
and answers, so if you would please proceed on that basis, I 
think we are going to start with Mr. Kojm.

 STATEMENTS OF CHRISTOPHER KOJM, PRESIDENT OF THE 9/11 PUBLIC 
DISCOURSE PROJECT AND DEPUTY DIRECTOR, 9/11 COMMISSION; SAMINA 
AHMED, SOUTH ASIA PROJECT DIRECTOR FOR THE INTERNATIONAL CRISIS 
 GROUP; LISA CURTIS, SENIOR RESEARCH FELLOW, SOUTH ASIA, ASIAN 
   STUDIES CENTER, THE HERITAGE FOUNDATION; AND CRAIG COHEN, 
DEPUTY CHIEF OF STAFF, AND FELLOW, POST-CONFLICT RECONSTRUCTION 
  PROJECT, INTERNATIONAL SECURITY PROGRAM, AT THE CENTER FOR 
              STRATEGIC AND INTERNATIONAL STUDIES

                 STATEMENT OF CHRISTOPHER KOJM

    Mr. Kojm. Thank you, Mr. Chairman.
    Chairman Tierney, Ranking Member Shays, distinguished 
members of the subcommittee, it is an honor to appear before 
you this morning.
    I believe I can be brief, because the chairman has been 
eloquent in outlining the work of the Commission and the Public 
Discourse Project.
    Governor Kaine and Mr. Hamilton have observed that all the 
Commission's recommendations, those relating to education, have 
really received the least amount of attention; therefore, they 
are especially grateful for the work of this subcommittee in 
shining a bright light, and they asked me to convey to you 
their deep appreciation for your leadership, including the 
leadership of Chairman Shays in the 109th Congress and the 
leadership of Chairman Tierney with the ambitious series of 
hearings he has outlined for this Congress.
    The chairman has mentioned that the Commission felt 
strongly that you cannot use just one tool of American foreign 
policy; you need to use all the tools.
    Former Secretary Rumsfeld on this point has been especially 
eloquent. He said 4 years ago, ``Are we capturing, killing, or 
deterring and dissuading more terrorists every day than the 
madrassas and the radical clerics are recruiting, training, and 
deploying against us?'' The answer is no. The threat to us 
today is not great armies, it is an ideology, the ideology that 
propelled 19 young men and is propelling so many others to take 
their own lives in the desire to harm us.
    It is important to go after Bin Laden and those who support 
him, to kill and capture them, but even more important are the 
tens of millions of young Arabs, the hundreds of millions of 
young Muslims who sympathize with this ideology. They represent 
in the long term the true threat to us. They are the wellspring 
to refresh the doctrine of hate and destruction.
    Therefore, the Commission felt strongly that the United 
States has to define for itself a positive image in the Islamic 
world, a message of hope, a message of economic and educational 
opportunity. Education that teaches tolerance, the dignity and 
value of each individual, and respect for different beliefs is 
a key element in any global strategy to eliminate Islamic 
terrorism.
    For this reason, as the chairman has outlined, the 
Commission made the recommendations it did: three important 
recommendations on education to combat the threat from 
terrorism.
    Those have been outlined, so I will just speak briefly as 
to what has been achieved with respect to them.
    On secular education, the Congress, in the December 2004, 
Intelligence Reform Act, did authorize the creation of an 
international youth opportunity fund; however, the President 
has not requested funds. Congress has not appropriated funds 
for such an endeavor.
    There are educational efforts underway through the Middle 
East Partnership Initiative, the work of USAID, but they simply 
are not adequate for the task.
    Our country needs a strategy for educational assistance 
that is part of our overall foreign policy strategy for this 
part of the world, and we need to fund it. We are just not 
funding it at any level that is appreciable that can make a 
difference.
    On scholarship, library, and education programs, I think 
the important point here is that, by and large, we are moving 
backward. We are closing posts. We are limiting access. Much of 
this, of course, relates to security, but security cannot trump 
American national interests.
    The most important part of public diplomacy is the last 
three feet. In the conversation between our people and the 
people of host countries, TV and radio is useful. I don't want 
to criticize it. But what really matters is building human ties 
and contacts. You can't influence people if you don't meet with 
them.
    And what has happened in our libraries, we have closed them 
and we have substituted Web sites, we have substituted so-
called America's Corners in libraries. That is not good enough. 
You need the human contact. Our libraries are not for just 
books or magazines; it is for building relationships and 
getting young people interested, many of them, in coming to the 
United States and developing education and careers.
    The hardest thing in public diplomacy is funding 
scholarship and exchange programs, because in 1 year you can't 
see any impact. In 5 years you can't see much impact. But in 
the course of a generation there is nothing more important in 
public diplomacy than what we invest in scholarship and 
exchanges, because you shape attitudes for a generation, for 
the leadership of Pakistan and other countries, that they know 
the United States, they know how to work and relate with us, 
and, as we hit rough patches, as we always will in our 
relationship, at least we have interlocutors who have a 
sensible understanding of what we are trying to achieve, even 
if they don't agree with us.
    Finally, the overall judgment of the Commission with 
respect to our relationship, Pakistan is important to us. Of 
course it is. We must have a relationship with Pakistan. 
President Musharraf has done a great deal in terms of 
apprehending bad guys. On the other hand, the Commission and 
the Public Discourse Project noted, as the chairman has, that 
there is still so much that needs to be done, especially along 
the frontier, in terms of better cooperation.
    Turning to madrassas, the Public Discourse Project, 
frankly, was disappointed. The rhetoric has been good; the 
actions have not been fulfilled with respect to educational 
reform, either by Pakistani leaders or by the United States.
    Let me just close by saying that Chairman Kaine and Vice 
Chair Hamilton understood that we cannot solve the problems of 
this part of the world. They are too great and our resources, 
no matter how much we bring to bear, can't address the problem 
comprehensively. Yet, it is critically important that people in 
the Arab world, people across the Islamic world need to know 
that America is on their side, that we stand for political 
participation, personal freedom, rule of law, economic, and, 
above all, educational opportunity.
    Secular education opens doors to a better future. America's 
support for education sends a powerful message. It is a message 
of hope.
    Thank you for your time and attention. I look forward to 
your questions.
    [The prepared statement of Mr. Kojm follows:]
    [GRAPHIC] [TIFF OMITTED] 37093.008
    
    [GRAPHIC] [TIFF OMITTED] 37093.009
    
    [GRAPHIC] [TIFF OMITTED] 37093.010
    
    [GRAPHIC] [TIFF OMITTED] 37093.011
    
    [GRAPHIC] [TIFF OMITTED] 37093.012
    
    Mr. Tierney. Thank you, Mr. Kojm. I appreciate your 
remarks.
    Now we are going to see if the committee really has the 
technology down. We are going to go to Dr. Samina Ahmed and ask 
for her remarks.
    Doctor, please.

                   STATEMENT OF SAMINA AHMED

    Ms. Ahmed. Mr. Chairman, vice chairman, distinguished 
members of the committee, thank you so very much for this 
privilege of testifying on behalf of the International Crisis 
Group.
    My testimony will focus on the state of Islamic radicalism 
in Pakistan, because we have to look at the overall picture and 
then look at the madrassas in that context.
    President Musharraf joined the United States as an ally in 
the war on terror. He has been the beneficiary of billions of 
dollars of assistance. He has also been the beneficiary of 
enormous U.S. diplomatic support. But we, the Crisis Group, 
give him an F grade in dismantling Jihadi and violent sectarian 
groups, in regulating the madrassas that sustain them, which 
were, after all, key commitments that he had made to the United 
States as a partner in the war on terror.
    Yes, he has banned a number of Islamic radical groups, but 
they are still operating freely with their infrastructure 
intact, including those that have been declared terror 
organizations by the United Nations and the United States.
    The Jihadi madrassas, as the chairman talked about in some 
detail, are one of our greatest concerns, as well as that of 
the United States, with good reason. It is these Jihadi 
madrassas or these extremist madrassas that provide and train 
recruits for local, regional, and international Jihads.
    The chairman talked about the Red Mosque Complex, which is 
in Islamabad, itself. We have seen, since January 2007, the 
Jihadi managers of the two madrassas associated with this 
complex taking on the state, taking on the citizens, launching 
a reign of terror, but the government's response has been to 
cave in to their demands instead of enforcing rule of law, 
instead of protecting Pakistani citizens.
    The demands that they have caved in, for example, are that 
the illegally constructed madrassas on state land will be 
reconstructed. These were demolished because of good reason, 
but caving in to their demand means that other Jihadi madrassas 
will now be encouraged, use force, and then the state will cave 
in.
    But the president of the ruling party, Musharraf's ruling 
party, has also said that the government will accept yet 
another demand, which is to enforce the [foreign word], Islamic 
law.
    These are not the kinds of signals that should have been 
sent to Jihadis who are challenging the right of the state and 
who are, in fact, a threat to international security.
    Other Jihadi madrassas are also flourishing, and if you 
talk about madrassa reform, one of the things you have to 
remember is that underpinning any madrassa reform is the 
legislation. The legislation enacted by this government is 
imperfect to the extreme. If you actually look at the 
legislation, which is an amended act of 1860, it provides no 
reliable statistics, even on the number of madrassas. The 
government says there is something like 13,800. Independent 
observers believe there could be anywhere between 20,000. Even 
if 10 to 15 percent of these madrassas are extremist madrassas, 
we have a serious problem on our hands.
    Because of this imperfect nature of the legislation, we 
don't know how many students are in those madrassas. Even more 
so, it is extremely disconcerting that the religious, the 
Jihadi, the tiering content of the curriculum has not been 
addressed in this endeavor to actually reform the curriculum of 
the madrassas. Until that is addressed in a meaningful fashion, 
extremist madrassas will keep on preaching the Jihad, will keep 
on indoctrinating young people. The extremist madrassas are 
still distributing Jihadi material. They are still no ways of 
telling in any meaningful way the means of funding, the donors 
of these madrassas, how many foreign students are there. And 
even the madrassas that are linked to the banned Jihadi groups 
are still flourishing.
    There is good reason that the State Department said, as 
you, Mr. Chairman, have alluded, that Pakistan is a major 
source of Islamic extremism and a safe haven for terrorist 
leaders, the reason being that these Jihadi madrassas provide 
recruits to the extremist organizations, the homegrown 
terrorist organizations. And, as we have seen since 2002, these 
homegrown terrorist organizations, many of them with links to 
Al Qaeda, are still flourishing.
    There has been no meaningful activity on the part of the 
government to make sure that these organizations don't operate 
under changed names, don't operate under fronts. What are the 
compulsions of the regime? Is it because they don't have the 
capacity? It seems much more so that there isn't a political 
will.
    Let's not forget that President Musharraf has a formal 
alliance with the Jamaat-i-Islam. This is the pro-Taliban 
party, the religious party, the largest party in the religious 
alliance that forms the government of Balochistan. You talked 
at Quetta? Well, Quetta is the provincial capital of 
Balochistan. The reason for this alliance relationship is 
because of regime constraints, because of the need to reach 
[foreign word], to marginalize his main civilian opponents, the 
moderate parties, the largest moderate parties being the PPP 
and the Muslim League that still retain the vast majority of 
popular support in a country where people are, for the very 
large part, moderate Muslims.
    There are new opportunities that are now arising, and let's 
see if the United States takes up these opportunities in making 
sure that this reform project that has been put on hold is 
actually given new life. It is absolutely essential that, as we 
are in 2007, an election year, that the United States decides--
another witness referred to rule of law and how important that 
is to the United States. Rule of law and constitutionalism 
should be central. A free and fair election and a democratic 
transition should be central to U.S. policy, because it is then 
when the moderate parties will come into their own. The 
religious extremists and the extremist madrassas will face a 
real challenge.
    I am told when I have said this many times before, before 
members of various branches of the U.S. Government, what then 
happens? Can a moderate government, democratically elected 
government control the military, which is essential to any 
cooperation in the war on terror? I think it is absolutely 
essential that the United States does not give the military a 
blank check. There needs to be now clear benchmarks, benchmarks 
on reform of the madrassas, including a demand that the Jihadi 
madrassas must be closed down. There need to be benchmarks also 
for a democratic transition and a clear signal sent that the 
United States will not accept the military once again 
intervening to stop a moderate government from implementing the 
reforms that would stabilize Pakistan, that could benefit 
Afghanistan, and that would work in U.S. national security 
interests.
    Thank you, Mr. Chairman.
    [The prepared statement of Ms. Ahmed follows:]
    [GRAPHIC] [TIFF OMITTED] 37093.019
    
    [GRAPHIC] [TIFF OMITTED] 37093.020
    
    [GRAPHIC] [TIFF OMITTED] 37093.021
    
    [GRAPHIC] [TIFF OMITTED] 37093.022
    
    [GRAPHIC] [TIFF OMITTED] 37093.023
    
    [GRAPHIC] [TIFF OMITTED] 37093.024
    
    Mr. Tierney. Thank you, Dr. Ahmed. We appreciate it. We are 
most grateful that the technology is working on that, as well.
    Ms. Curtis.

                    STATEMENT OF LISA CURTIS

    Ms. Curtis. Thank you. Mr. Chairman, Mr. Vice Chairman, and 
members of the subcommittee, thank you for inviting me here 
today to discuss U.S. assistance programs to Pakistan's 
education sector and the role of madrassas in contributing to 
extremism and militancy.
    I will briefly summarize my written statement and ask that 
my full statement be included in the hearing record.
    Achieving a strong and effective education system in 
Pakistan is essential to promoting stability, moderation, and 
prosperity, and should be a top priority for Washington in its 
relations with Islamabad. Lack of adequate education 
opportunities in Pakistan has contributed to development of 
extremist ideologies that have fueled terrorism and sectarian 
tensions, as well as stifled economic growth.
    Pakistan's public education system has suffered 
tremendously over the last several decades. The overall adult 
literacy rate is about 43 percent, with the female literacy 
rate as low as 32 percent. With the population growth rate well 
over 2 percent, Pakistan will add about 100 million people to 
its population over the next 25 years. Pakistan must implement 
significant education reforms and raise literacy rates and 
skill levels so that the Pakistani youth of today will play a 
productive role in the future economy.
    U.S. assistance to primary education and literacy in 
Pakistan more than doubled, from $28 million in fiscal year 
2004 to $66 million in fiscal year 2005. The impact of the 
findings of the 9/11 Commission report issued in July 2004, 
which emphasized the importance of educational opportunity in 
uprooting terrorist ideology, as well as increased 
congressional oversight of USAID programs to Pakistan 
contributed to the increase in education spending.
    The fiscal year 2008 State Department congressional budget 
request includes $52 million for general education programs and 
an additional $50 million for earthquake reconstruction of 
schools and health facilities.
    USAID education programs focus on empowering the local 
community by fostering partnerships between parents and 
teachers that improve accountability for the children's 
education. I had the opportunity to visit a USAID-funded school 
outside of Islamabad in late 2005. I met the students, 
teachers, and parents, and saw first hand the pride they took 
in their school and their appreciation for the USAID support. 
Through a grant of only $1,500, USAID had helped establish a 
school for 500 children and built community support for the 
teachers and the maintenance of the school facilities.
    Washington also needs to encourage the Pakistan government 
to follow through on its own reforms, including limiting 
corruption and inefficiency within the education system.
    The Musharraf government launched its education sector 
reforms in January 2002, but has yet to fulfill its pledge to 
raise the education budget to 4 percent of GDP, in line with 
UNESCO recommendations.
    The United States and other international donors should be 
careful not to repeat the mistakes made in the World Bank 
social action program implemented during the 1980's and 1990's. 
Although billions were spent on this program, it failed to meet 
basic objectives like increasing school enrollment and bringing 
education to remote parts of the country. Some experts believe 
the program failed because it did not address the problems of 
corruption and inefficiency within the Pakistan education 
bureaucracy.
    The role of the madrassa in Pakistan and its contribution 
to Islamic militancy has been the subject of intense debate in 
U.S. academic and policy circles. Observers have argued over 
the actual numbers of madrassas and madrassa students in 
Pakistan. Recent statistics from the government of Pakistan 
indicate there may be around 12,000 madrassas and between 1.5 
to 2 million madrassa students; however, the number of 
madrassas is not particularly relevant to assessing their link 
to terrorism. Many of the older madrassas have well-established 
reputations for producing serious Islamic thinkers, while 
others provide welfare services to the poor through free 
religious education, lodging, and food.
    Most madrassas in Pakistan are not turning out terrorist 
foot soldiers; however, there are a handful of seminaries that 
do promote anti-west, pan-Islamic, and violent ideologies, and 
it is on these few madrassas where U.S. policymakers and the 
Pakistan authorities should focus their attention. Some of 
these dangerous madrassas are in the Northwest Frontier 
Province, including the semi-autonomous areas bordering 
Afghanistan. Some are in southern Punjab, and others are in 
major cities like Lahore, Islamabad, and Karachi.
    Some of these madrassas have contributed to sectarian 
tensions in Pakistan, while others have close institutional 
links with the Taliban. The recently jailed leader of a 
fertilizer bomb plot in England, Omar Khyam, was reportedly 
inspired and trained by Pakistan-based terrorists connected 
with the Kashmir militancy. In addition, one of the suicide 
bombers that carried out the July 7, 2005, bombings of the 
London transport system reportedly spent time at a Pakistani 
madrassa.
    Washington should press Pakistan to crack down on those 
madrassas that continue to promote extremism and sectarian 
policies that lead to terrorism and destabilization of 
Pakistani society. The Pakistani authorities should be 
encouraged to clean house and any madrassa found to have links 
to international terrorist incidents. Islamabad should also 
make clear that individuals who provide protection or safe 
haven to Al Qaeda or like-minded terrorist groups will be held 
to account.
    We have to use skillful diplomacy to persuade the Pakistan 
government to shut down completely all militant groups and to 
reform or close down those madrassas promoting violence and 
extremism. After 9/11, Pakistan did a 45-degree turn in ending 
official support to the Taliban. In early 2004, Pakistan did 
another 45-degree turn in sending troops to Wazirastan to 
combat Al Qaeda and Taliban elements there. However, now we 
need the government to complete the turn and end the permissive 
environment for all militant groups, including those that 
operate in Kashmir.
    The United States should avoid, however, getting involved 
in Pakistan's broader madrassa reform efforts and accept that 
many of the traditional madrassas serve a useful purpose in 
educating Islamic intellectuals and providing shelter and food 
for impoverished youth. While a few Pakistani madrassas 
represent an international terrorist threat and deserve 
American scrutiny, most madrassas do not pose a threat.
    The United States should also program more funds for 
specific education and development projects, rather than 
continue to provide the bulk of our economic assistance in the 
form of a direct cash transfer to the Pakistan government. 
Since 2004, the United States has provided $200 million 
annually to Pakistan in the form of direct budgetary support. 
We have established a consulting mechanism with Pakistan to try 
to ensure a portion of this money is spent on health and 
education; however, we cannot fully ensure that the U.S. 
taxpayer money is contributing to economic and human 
development in Pakistan.
    The United States also reaps little public diplomacy 
benefits with the broader Pakistani population from this type 
of direct aid, which most Pakistanis view as benefiting the 
Musharraf regime, not the average Pakistani citizen.
    The U.S. Congress should require that at least two-thirds 
of our total economic support fund [ESF], assistance be in the 
form of USAID project assistance related to education, health, 
and economic and democratic development.
    To conclude, the development of a strong and effective 
education system is central to promoting moderation, tolerance, 
and economic development in Pakistan, and should, therefore, be 
a key plank in our relationship with Islamabad. Convincing the 
Pakistani government to take firm action against the handful of 
madrassas supporting violent extremism also is necessary, not 
only for the future stability of Pakistan, but to prevent 
future incidents of international terrorism.
    Thank you.
    [The prepared statement of Ms. Curtis follows:]
    [GRAPHIC] [TIFF OMITTED] 37093.013
    
    [GRAPHIC] [TIFF OMITTED] 37093.014
    
    [GRAPHIC] [TIFF OMITTED] 37093.015
    
    [GRAPHIC] [TIFF OMITTED] 37093.016
    
    [GRAPHIC] [TIFF OMITTED] 37093.017
    
    [GRAPHIC] [TIFF OMITTED] 37093.018
    
    Mr. Tierney. Thank you, Ms. Curtis.
    Mr. Cohen.

                    STATEMENT OF CRAIG COHEN

    Mr. Cohen. Mr. Chairman, Mr. Vice Chairman, I want to thank 
you and your distinguished colleagues for the opportunity to 
testify before you today. It is with great humility that I do 
so.
    I am here because I am leading a CSIS study with Rick 
Barton on U.S. assistance to Pakistan since 9/11. It is a study 
about the U.S. Government approach to large aid recipients like 
Pakistan. We spent the last year asking experts here in the 
United States and in Pakistan: What are U.S. goals? Is there a 
coherent strategy? How much are we spending, and on what? And 
what has been the impact of our aid?
    We have a report that is due out later this week, and with 
your permission we would like to submit it for the record.
    Mr. Tierney. Without objection, so ordered.
    Mr. Cohen. The conclusion we reached from these 
conversations is that the current U.S. Pakistan relationship is 
the legacy of a deal made after 9/11: U.S. assistance in return 
for Pakistan cooperation on counter-terrorism and the war in 
Afghanistan. This may well have been the right deal to make 
after 9/11, but it has run its course.
    There are three main reasons why this is so.
    First, we have put all our eggs in one basket, and that 
basket may well be breaking. Musharraf's position is quickly 
weakening, and recent protests may signal the beginning of his 
political end.
    Second, by most accounts, Pakistan is failing to deliver on 
the key U.S. foreign policy goal, denying Taliban safe haven on 
the western border. U.S. soldiers are dying in Afghanistan, and 
the reconstruction project is under threat due to these cross-
border raids.
    Third, we are not doing enough to help shape the Pakistan 
that will emerge 10 to 20 years down the road. By 2030, 
Pakistan will have 250 million people. It will be the largest 
Muslim population in the world, and more than half of this 
population will be below the age of 18.
    There have been some genuine gains in the last 5 years of 
cooperation on intelligence, on economic growth, on a throng of 
relations with India, but too many in Washington and Pakistan 
still see this as an alliance of convenience.
    Our current assistance package has reinforced this notion 
that America stands primarily behind Musharraf and the 
Pakistani military rather than the Pakistani people.
    Our research has shown that the United States has provided 
Pakistan with over $10 billion worth of military, economic, and 
development assistance in the past 6 years since 9/11. The 
majority of this money, close to 60 percent, has gone toward 
reimbursing the Pakistani military for its assistance in the 
war on terror through Coalition support funds.
    Roughly 15 percent has gone to security assistance. The 
vast majority of this money has gone to purchase major U.S. 
weapons systems which are better suited for military 
confrontation with India, rather than against Al Qaeda or the 
Taliban.
    Another 15 percent has gone to direct budget support, a 
cash transfer to the government of Pakistan, based on loosely 
worded shared objectives with few real accountability 
mechanisms built in.
    This leaves about 10 percent for long-term development and 
short-term humanitarian assistance, including our response to 
the October 2005, earthquake. Education, which the 9/11 
Commission rightly said was critical to making a long-term 
commitment to Pakistan, comes in at only 3.4 percent of total 
U.S. spending. We encourage the government of Pakistan to spend 
4 percent of its GDP on education, but we don't even do this 
with our own aid.
    The United States is spending $64 million a year for over 
30 to 50 million school-aged children in Pakistan. That is a 
little over $1 to $2 per child per year.
    U.S. objectives far outstrip our means of achieving them in 
Pakistan. We all know the scale of the problem, and we have 
heard it here today: women's literacy under 30 percent, school 
enrollment under 30 percent, teachers who lack skills and 
incentives and fail to show up for work, more Pakistanis 
avoiding public schools and being drawn to madrassas.
    Let me close by making three recommendations. First, let's 
become the country that provides opportunity for young 
Pakistanis rather than a country that is at war with Islam, 
which is how we are perceived today. We can't sacrifice our 
short-term security, but our long-term security may well depend 
on such a shift.
    Second, education reform requires governance reform. The 
dominant view is that the Pakistani military is the only 
effective institution in the country, but rather than reinforce 
this through our assistance we should be supporting the long-
term civilian institution building and democratic processes.
    Finally, rather than trying to gain leverage by 
conditioning aid, which is unlikely to work, Congress ought to 
take a harder look at what we are spending now in Pakistan and 
consider a different mix of assistance and greater 
accountability mechanisms. We need to trust, but we also need 
to verify.
    Thank you very much.
    [The prepared statement of Mr. Cohen follows:]
    [GRAPHIC] [TIFF OMITTED] 37093.025
    
    [GRAPHIC] [TIFF OMITTED] 37093.026
    
    [GRAPHIC] [TIFF OMITTED] 37093.027
    
    [GRAPHIC] [TIFF OMITTED] 37093.028
    
    [GRAPHIC] [TIFF OMITTED] 37093.029
    
    [GRAPHIC] [TIFF OMITTED] 37093.030
    
    [GRAPHIC] [TIFF OMITTED] 37093.031
    
    Mr. Tierney. Thank you, Mr. Cohen, and thank all of the 
witnesses for their thoughtful testimony, as well as their 
reports.
    We are going to get to our question and answer period here. 
With everybody's indulgence, I am going to start with a couple 
of questions.
    Dr. Ahmed, I noted the last thing that Mr. Cohen mentioned 
is that education reform requires government reform, as well. 
In your testimony you said, ``The choice that Pakistan faces is 
not between the military and the mullahs, as is generally 
believed in the west, including the United States; it is 
between genuine democracy and a mullah military alliance that 
is responsible for the religious extremism that poses a threat 
to Pakistani, regional, and international security.'' Would you 
elaborate on that for us, especially with respect to our policy 
and what it should be coming up with the elections due in the 
fall.
    Ms. Ahmed. It is, I think, going to be the most crucial 
issue there is in terms of U.S. policy toward Pakistan, because 
this opportunity is here now. It is not going to last forever.
    In 2007 you have an election approaching, in fact, two 
elections approaching, one for the presidency, President 
Musharraf's reelection bid; the second for the national 
parliament that will actually form a government if these 
elections are free and fair by going by all electoral records. 
If you actually look at the entire history of Pakistan, the 
mullahs on their own have never managed to get more than 
perhaps 5 percent of the vote. The first time they have 
actually managed to get more than that and to form two of the 
state governments of Pakistan was under General Musharraf. In 
2002 a rigged election allowed the mullahs the advantages of 
state support, deprived the moderate parties and marginalized 
them in the process of an even playing field, and, again, 
through a bargaining process between the military and the 
mullahs, you saw the mullahs taking over even the position of 
leader of the opposition, which is the government awaiting in a 
parliamentary system in the Federal parliament.
    This happened because of the military support and because 
of Musharraf said basically it was a necessity to sideline and 
to marginalize his main civilian opposition.
    Despite the rigged election, you saw the two moderate 
parties, the Pakistan People's Party and Muslim Icnavas, 
gaining the largest segment of the popular ward. The Muslim 
Icnavas came in a fairly respectable third or fourth.
    If there was an even playing field, then I think we would 
see the outcome of the 2002 election reversed. The mullahs 
would lose. They would shrink back to their 5 percent. The 
moderate parties, one of the two, a center left party, a center 
right party, would form a government. For that, however, if the 
military intends to retain power, it will have to rely on the 
mullahs. They are the only reliable civilian partners, given 
the fact that the opposition comes from the largest moderate 
parties.
    In a rigged election what would we see? This is why I say 
this is a crucial year. The JUI, the party that is, was in some 
ways the creation of the Taliban, which remains a greater 
supporter of the Taliban, and which is still a party that has 
the largest network of the madrassas that produce the Taliban 
recruits coming back into power with the military support in 
those two crucial provinces that were mentioned, Balochistan 
and the Northwest Frontier Province.
    If we actually see what has happened in Afghanistan and 
where the threat comes from, it comes from recruits in these 
two provinces. It comes from Taliban command and control 
structures in these provinces. It comes from, in actual fact, 
state support because of the provincial governments, the state 
governments are providing support to the Taliban, then it means 
the Pakistani state is.
    With a democratic transition, you would see that change, 
but for the first step to a democratic transition obviously has 
to be a free and fair election.
    Mr. Tierney. Thank you very much for that answer.
    The other panelists I would like to ask, I hear very 
clearly that, obviously, the fact that somebody has a madrassa 
doesn't mean that it is a Jihadist or extremist madrassa, that 
as much as we have religious schools in this country, whether 
they be Catholic or protestant or Jewish or whatever they might 
be, that exists in Pakistan, but sometimes those schools may 
not teach secular courses to the extent they should, and some--
too many, I would argue--are probably teaching extremism on 
that.
    How would we condition our aid? Mr. Cohen, you mentioned at 
the end that you wouldn't necessarily put conditions on the 
money that we do send as aid to Pakistan, but you said 
something about not conditioning it but allocating it 
differently, and, Ms. Curtis, you also mentioned that. Would 
each of you address how you think the United States ought to 
change its aid package? If not conditioning the money that goes 
to the Pakistani government, how would we distribute it?
    Ms. Curtis. Yes. I think this is an important point that 
really the terrorist problem, the extremism problem is coming 
from a handful of madrassas in Pakistan. This goes at the issue 
of the U.S. needing to demonstrate clearly that our fight 
against global terrorism is for protection of international 
security and it is not a fight against Islam as a religion. So, 
in particular, when we are talking about madrassas in Pakistan 
I think it is very important for us to be clear that we are not 
against, obviously, religious education and schools that 
promote Islamic thought, etc.
    I think this is really key, and that is why I had raised in 
my testimony the importance of really honing in on those 
madrassas that are feeding the militant groups. They have an 
interdependent relationship with the militant groups. The 
militant groups draw recruits from these particular madrassas 
and the madrassas, in turn, receive armed protection from the 
militant groups. So it is these few madrassas that we need to 
be focusing our efforts on.
    In terms of our aid programs, as I mentioned in my oral 
remarks, I think we should really look seriously at this $200 
million direct cash transfer that we have been delivering to 
the Pakistanis over the last several years and look at that and 
determine whether we can projectize more of that assistance so 
it is more under U.S. control in terms of what we are doing to 
help in education, democracy, health, and all of those issues.
    So those are the issues that we need to be looking at.
    And then, in terms of shutting down those madrassas that 
are dangerous, of course, we are working with, you know, the 
Musharraf government, and he has his own struggles within his 
own government and within the Pakistani establishment, itself, 
I think there is still debate on how much they are interested 
in cracking down, particularly in groups they have supported in 
the past in the Kashmir militancy. So that is the key problem.
    Mr. Tierney. Thank you.
    Mr. Cohen, I am going to give you a chance, with the 
indulgence of the committee members, but, just very quickly, I 
think it might be helpful to the committee, is everybody on the 
panel in agreement that there are a handful of madrassas that 
might be extremists? Dr. Ahmed.
    Ms. Ahmed. I wouldn't say that 10 to 15 percent, which is 
what we were told by the authorities that should know about the 
subject in Pakistan. When we did our madrassa reports, 10 to 15 
percent of maybe 20,000 madrassas is not a handful.
    Mr. Tierney. Thank you. Mr. Kojm, what is your 
understanding of that?
    Mr. Kojm. Well, I think the witness who has just testified, 
she has the most up-to-date information on it, and I am in no 
position to state otherwise. I would simply make the 
observation from the Commission that in the ideal world there 
would be secular education that could reach most, if not all, 
the population. That can't be done, so you have to prioritize 
the problems you address, and so it has to be those madrassas 
that are truly identified as those that contribute to extremism 
and you have just got to go at them one after another. My 
impression is that it certainly does not exceed what has 
already been mentioned.
    Mr. Tierney. Thank you.
    And Mr. Cohen?
    Mr. Cohen. I don't have information that contradicts what 
Ms. Ahmed said.
    I could speak to your aid question, if you would like.
    Mr. Tierney. My apology to you. It has to be brief, if you 
would, just how the distribution would go.
    Mr. Cohen. OK. I think on the distribution you need a 
better balance between short and long-term and between what 
goes to the state and what actually reaches the people of 
Pakistan.
    Mr. Tierney. Directly more than through the state?
    Mr. Cohen. Correct.
    Mr. Tierney. All right. Thank you.
    I thank the members of the panel for their indulgence on 
that.
    Mr. McHenry.
    Mr. McHenry. Thank you, Mr. Chairman.
    Before I begin my questions, I want to thank the chairman 
for leading a co-del to Pakistan and Afghanistan before Easter, 
and, along with my colleague from Minnesota, Ms. McCollum, it 
was a very good trip, very well put together, and it was a very 
good bipartisan trip. We met with Dr. Ahmed there, which was an 
absolutely fascinating discussion, and thank you for your time.
    I also want to thank the chairman for putting together that 
trip, and very, very sincerely I thank you for your hard work 
on this. The fruits of that trip are here today.
    I want to commend your staff, as well, Andy Wright on your 
staff, and on the minority staff A. Brooke Bennett, for their 
work. Thank you.
    Dr. Ahmed, you mention in your statement that there is a 
link that the madrassas and the Jihadist groups depend on each 
other in some way, shape, or form. Can you expand on that? I 
think it is a very important point.
    Ms. Ahmed. Thank you.
    The reason why we stress the need to tackle the issue of 
Islamic extremist madrassas is just that: the recruitment for 
the homegrown terror groups comes from, the recruits come from 
these madrassas. The indoctrination process takes place in 
these madrassas.
    Just think of what these children are being taught. They 
are being taught Jihad is acceptable. They are being taught, 
even as the chairman mentioned the madrassa of the Red Mosque 
complex, that an anti-western Jihad in Afghanistan is what you 
should be striving for. You have the managers of these 
madrassas indoctrinating these young people to actually go out 
and join the terror groups.
    But then what you also have is a nexus between these terror 
groups, which are homegrown terrorists, with cross-national 
terror organizations, which is Al Qaeda, or regional terror 
groups, such as the Taliban.
    So there is then an organized input from the madrassas 
systematically turning out Jihadis from the Jihadi madrassas, 
of course, to the homegrown terror groups, to the Taliban, and 
also to terror organizations within Pakistan that are 
affiliated with Al Qaeda or believe in Al Qaeda's ideology.
    Mr. McHenry. Dr. Ahmed, could you, as a followup to this, 
is our current policy, the U.S. current policy toward Pakistan 
in our long-term best interest?
    Ms. Ahmed. The United States has to decide at this point in 
time what does it want to see Pakistan become another 5 years 
from now or 10 years from now. Pakistan can only become what 
the United States would, I think, want to see--a democratic, 
moderate country--if the democratic process is allowed to 
proceed now, if there is a democratic transition now.
    If you have another 5 years of indirect or direct military 
rule, then I think you will see the moderate forces in Pakistan 
marginalized to the extent that they will find it difficult to 
make a comeback.
    What we have seen, Congressman, in the past 2 weeks is 
something that I think should be encouraging for the United 
States: Pakistani citizens, civil society, political parties, 
NGO's rising up to talk and defend rule of law, to defend what 
they see as the central integral element to a democratic 
framework, which is independence of the judiciary. That is the 
vast majority, and I think U.S. policy should shape itself to 
engage with that process.
    Short-term benefits, which certainly the United States to 
some extent has out of its engagement with this government, 
don't translate into long-term benefits for the United States 
so long as you still have these dynamics at work, which is the 
moderate majority sidelined and the extremists benefiting from 
military rule.
    Mr. McHenry. Thank you. Thank you, Dr. Ahmed.
    Ms. Curtis and Mr. Cohen, Egypt, Israel, and Jordan, along 
with Pakistan, are the only countries in the world that receive 
a direct budget support from us, and it is almost a check for 
them to do whatever they would like with it, as you mentioned 
in your testimony, Mr. Cohen. What is your suggestion to this 
committee on how the United States can apply pressure to 
Pakistan under this arrangement? I mean, you mentioned 3.4 
percent of our support goes to education. Give me some 
recommendations. Flesh that out for us on how we can use what 
we have at our disposal to, in essence, push aside madrassas 
and not make them a central part of society.
    Mr. Cohen. My view is that it has to start with a more 
honest dialog, that there is a mechanism in place for a 
strategic dialog but it hasn't been taken advantage of to the 
extent possible. I think that if we are more honest with what 
we are looking for, I think what happens now, what we have 
heard from many, many experts here in town and in Pakistan is 
that different parts of the U.S. Government have different 
priorities. Some may be most interested in the Taliban. Some 
may be most interested in Al Qaeda. Others might be pushing for 
democracy. I think this sends mixed messages, to some extent, 
and there is not a clear strategy for what it is we are looking 
for in return. So I think it has to start there.
    I think Ms. Curtis' idea of trying to shift the money that 
goes to budget support to education is a good idea. I think 
getting better accountability, both for the Coalition support 
funds and for the budget support--at present the Pentagon's 
Comptroller's office has oversight of the Coalition support 
funds, and the Government, OMB, as well, does oversight of the 
economic support funds. But I think Congress could play a 
greater role here, as well.
    Mr. McHenry. Ms. Curtis, could you just finish out? And 
thank you, Mr. Chairman.
    Ms. Curtis. Yes. Just to repeat, I have a fairly clear 
recommendation for the Congress to require that a portion of 
that direct budgetary assistance not be provided directly but 
be projectized, so that would require changing the makeup of 
the aid budget, but I think this falls under congressional 
authority.
    I think one of the problems--and Mr. Cohen mentioned it--is 
about transparency in our relationship with Pakistan. This is a 
difficult issue. We are cooperating with Pakistan at different 
levels, counter-terrorism. President Musharraf is under some 
pressure. He receives a lot of criticism from the Pakistani 
population for being seen as an American lapdog and for 
cooperating too much with us. So it is a difficult issue, but, 
to the extent that the transparency on what we are actually 
doing with Pakistan and why the aid is so important I think 
would be very helpful, if some of this transparency could be 
brought to the surface.
    Mr. Tierney. Thank you.
    Thank you, Mr. McHenry.
    Ms. McCollum.
    Ms. McCollum. Thank you, Mr. Chair.
    There is so much to try to cover here in 5 minutes, 
especially having had the opportunity, as it was pointed out by 
both Chairman Tierney leading the delegation, I found Pakistan 
a wonderful country, beautiful, industrious people, and full of 
energy, and really wanting to move forward in a very positive 
way. But there are some challenges, as has been pointed out, 
and I don't know that the United States is doing its best and 
trying to put its best foot forward in the way that we are 
working with Pakistan to address these challenges.
    I am going to lure a few things out and leave it open to a 
discussion, maybe starting with the good doctor.
    From the limited reading I did, and listening to people, it 
is my understanding that, if we had public schools that were 
well equipped, with teachers, and parents felt confident that 
their children were going to receive a good education there, 
the madrassas might be facing some competition. Competition for 
the madrassas, the ones that still function in a way that do 
not preach hate and violence between people in other parts of 
the world, those madrassas would start competing to keep their 
students by offering more math, more science, more history, 
more of a balanced curriculum. So that would be one thing I 
would like to maybe hear some speculation on.
    We know that there is a youth bulge, so it would seem to me 
that if we are really about peace and stability for the long 
haul for the region, for the world, for ourselves, we wouldn't 
be putting a drop in the bucket toward reaching the future 
leaders and the future leaders' parents in that part of the 
world. We wouldn't be just putting 10 percent into supporting 
families, communities which lead to a healthier nation.
    So I would like maybe discussion on that.
    The issue--and it has been touched on quite a bit--of 
President-to-President support, rather than people-to-people, 
country-to-country, family to-family support, is very alarming 
and it doesn't speak to we are really going to be there for the 
long term to work in partnership.
    One of the things that I heard--and maybe the doctor could 
tell me if I heard this right--from people is they were fearful 
that the United States was going to walk away. I don't think 
they were fearful that the United States was going to walk away 
from not supplying the military. Maybe the military is 
concerned about it, the military guns and weapons, but that the 
United States wasn't going to be there to be partners in what I 
felt from them their desire to be more economically successful, 
to have more opportunities for education, more opportunities 
for engagement with the world.
    So, with this, I am going to, especially to our U.S. 
testifiers, with what is going on currently with the State 
Department, with the realignment with USAID, with more focus on 
targeted specific Presidential programs--and some of them I 
support, like Pat Barr--are we showing a commitment to our 
partners that we are going to be there as the youth bulge rose 
for a more sustainable, peaceful, co-existent world that starts 
person-to-person?
    With that, Mr. Chair, I would just like people to jump in 
as they can, maybe starting with our good friend in Pakistan.
    Ms. Ahmed. Thank you, ma'am.
    What you said was, I think, very, very important. I think 
being a functioning public school system that provided people 
the kinds of skills that would give them employment at the job 
market, had the state supported that, the madrassas wouldn't 
have been not even a third choice. Most of these madrassas 
would have literally withered on the vine.
    We have said, Crisis Group has said repeatedly in all our 
reports--and we have done a report on public education, and we 
found abysmal conditions there. But, more than that, its 
actually not just the issue of ghost schools, in many areas 
there were no schools at all. What could parents do? The 
madrassas is a social net. We should justify that goal. It is 
the responsibility of the state. By the way, it is the 
constitutional duty of the Pakistani state to provide education 
to its children.
    For the state to abdicate its duty and its responsibility 
to its child to the madrassas sector and then say, you know, it 
plays a social function, etc.
    The fact is that what we found in our research, most 
parents would prefer to send their children to a public school 
which is affordable and provides a good education. We have also 
for that reason strongly stressed that international dollars 
and, in particular, the United States should not fund madrassa 
reform. It is absolutely essential they don't get into the 
business of actually financing the madrassa sector.
    The United States should focus its attention on the form of 
the public education sector because that would pay dividends to 
the Pakistani child and to the United States.
    In terms of the engagement between societies, American 
society and Pakistani society, unfortunately I would have to 
agree with you. There is deep concern amongst a number of 
Pakistanis in civil society that once the war on terror loses 
its importance for the United States the military won't be 
important, so it will also disengage from Pakistani civil 
society.
    I think that is where that commitment needs to be made now 
and the message that should be a clear one: that the United 
States is there for the long haul for the right reasons, which 
is to strengthen that partnership between peoples in the 
interest of the United States and the Pakistani people and, 
frankly speaking, of the global community.
    Thank you.
    Mr. Kojm. In response to Representative McCollum's comments 
and Dr. Ahmed's, I think all I can say is that the members of 
the 9/11 Commission would agree wholeheartedly and completely 
with your key observation about building a long-term 
relationship with the people of Pakistan. That is where 
America's national interests are and will be for the next 
generation. Yes, a relationship with the president is 
important. The Commission doesn't gainsay that. But our 
national interests are with the long-term relationship.
    Ms. Curtis. I had some further comments to Congresswoman 
McCollum's comments, as well.
    I think you are absolutely right that we are dealing with a 
trust deficit here, because of the cutoff of assistance in 1990 
and the fact that the U.S. turned its back on Pakistan and 
Afghanistan after the Soviets left Afghanistan. I think we 
still deal with that mistrust among the Pakistani people. It is 
very deep-rooted. That is why I think it is dangerous when we 
talk about cutting assistance or even conditioning assistance, 
as has been raised in H.R. 1 in legislation before this body. I 
think we have to really think twice about going down this path, 
because we do risk losing support from the broader Pakistani 
population for the overall U.S.-Pakistan relationship. That is 
why I have talked about, rather than cutting or conditioning, 
looking at how we allocate the assistance and, instead of 
taking away, just ensuring that there is more of a people-to-
people feel to the assistance and more of an American touch at 
the grassroots of society.
    And the second point I wanted to make, I think the Pakistan 
government has realized the need to expand the curriculum in 
the madrassas. Before 9/11, in August 2001 the Musharraf 
government promulgated the Pakistan Madrassa Education Board, 
an ordinance of 2001, and tried to establish three model 
madrassa institutions in three different cities, which would 
include English, math, and other subject areas. So there is a 
recognition within the Pakistan government about this problem 
of having too narrow of a focus within some of the madrassas, 
but they have just not been able to get the steam behind the 
efforts. There has been resistance from the madrassas, from the 
religious parties, and the government has not taken those 
entrenched interests on as of yet.
    The third point I wanted to make is getting back to this 
question of whether it is a handful. Sir, I don't know the 
exact numbers of Pakistani madrassas that are teaching 
terrorist hatred ideology. My point is to say let's not throw 
out the baby with the bath water. Let's not further alienate 
the Pakistani population or send out a signal that somehow our 
fight against terrorism is against the religion of Islam, 
because certainly it is not, and we have to be very careful 
when we deal with these sensitive religious issues. So that was 
my point.
    Thank you.
    Mr. Tierney. I thank you for that, and your point is well 
taken. I don't think it is missed by anybody up here. Handful 
means different things to different people, and I think we have 
to get an idea of what the scope of the issue is and then deal 
with it in the context which you set forth. I think you are 
right on that.
    Mr. Cohen, I am not going to give you an opportunity unless 
you have something entirely compelling to say that can't be 
missed.
    Mr. Cohen. You can go ahead, sir.
    Mr. Tierney. Thank you.
    Mr. Platts.
    Mr. Platts. Thank you, Mr. Chairman. I appreciate your 
attention to this issue.
    As a followup to Mr. McHenry's question, Ms. Curtis, you 
just kind of referenced it about throwing the baby out with the 
bath water. With the direct funding, the last 4 years I chaired 
a different subcommittee of the Oversight and Government Reform 
Committee dealing with financial management, and very much 
focused on internal controls and accountability, how we spend 
the taxpayer funds.
    Given the amount of money we are giving Pakistan and 
appreciate the importance of better, greater transparency and 
better accountability with that, what impact do you think it 
will have on our relations with Pakistan if we start putting 
more strings on that money? And then I guess in the past we 
withdrew some funding because of their nuclear pursuit and the 
consequences then, that in doing what normally would be the 
right thing, more accountability, controls on that money, that 
could result in, you know, worsening our relationship, which 
ultimately hurt us in the war on terror.
    Ms. Curtis. Yes, I think this is a sensitive issue. 
Obviously we want U.S. taxpayer money to be, you know, spent 
efficiently and to meet our objectives that we have with our 
international security policies with Pakistan, and weighing 
that with the idea that we do have this historical relationship 
of having withdrawn a huge aid program. We had thousands of 
USAID workers throughout the 1980's serving in Pakistan, 
building up goodwill between the United States and Pakistani 
people, and when we withdrew our aid program we lost all that. 
So we need to pay attention to that history and realize that 
when we talk about conditioning or cutting assistance we are 
touching on some very raw nerves. But at the same time, 
obviously we need to encourage transparency, we need to make 
sure that our assistance is reaching the people, that the 
people of Pakistan know that it is U.S. assistance and that 
they don't see that we are just trying to prop up the 
government or provide a payoff, so to speak.
    Mr. Platts. For you or for all the panelists, how confident 
are you today that the money is reaching the intended purpose, 
or, you know, achieving intended purpose and not being funneled 
to somebody's pocket, you know, given the current level of 
transparency?
    Ms. Curtis. Well, it is difficult to say. I think the 
problem is not so much the money that is programmed is not 
having an impact, because I think that it is. I haven't 
probably visited as many schools as Dr. Ahmed, but, you know, I 
have seen some of the program in action, so I think that is not 
the real question. I think the question is: is there enough 
going to the assistance? As Mr. Cohen pointed out, only 3.4 
percent or something of our total assistance to Pakistan is 
going toward education, which is actually lower than what we 
are asking the Pakistani government to commit as a percentage 
of their GDP to education.
    So I think the assistance that is programmed, the USAID 
assistance that is programmed, which, as I indicated, about $50 
million is being requested for the education sector in this 
budget, I think that is probably making a difference, but the 
question is: is it enough, or do we need to be increasing that 
level?
    Mr. Platts. Thank you. Do any of the other panelists want 
to comment?
    Mr. Cohen. I would just agree with Ms. Curtis and say that 
you can have 1,000 successful projects but it could add up to 
one collective failure.
    Mr. Tierney. Dr. Ahmed, I thought I heard you trying to 
kick in, as well.
    Ms. Ahmed. Yes. I would actually like to follow this up 
because I think it is a very important issue. It is not just 
the U.S. taxpayers' money, but you do want to make sure that it 
is used in a way that will have the most impact on Pakistani 
public opinion, as much as on the government's own interest. It 
is that balance which is the problem issue, not just the issue 
of transparency and accountability, which I think is absolutely 
essential, as well. Every cent that is spent in Pakistan is 
badly needed, whether it is needed for health or any other sort 
of sector. But there is an imbalance between the economic and 
the military. That was one of the issues touched upon.
    I would also like to say here that I think I disagree with 
this issue of conditionalities. Without any conditionalities, 
without any strings there is no accountability of assistance 
given.
    In the Pakistani context, it is now one of the largest 
recipients of U.S. military assistance, for example, not just 
economic but also military assistance. If there are no 
conditionalities, if H.R. 1 language is thrown away because it 
is considered as well a signal sent that might not be well 
received, the signal won't be sent at all. I think that is part 
of the problem that the United States had in engaging with this 
particular government. In the past, unfortunately, and Lisa 
pointed that out, it was economic assistance cut. That was not 
the thing to do. It should never have been done in that manner.
    But certainly at this point in time if there are no 
conditionalities put at all on assistance, in particular 
military assistance, then there is no signal sent that the 
United States really does want to see that kind of reform on 
the ground.
    Mr. Tierney. Thank you, Mr. Platts.
    Mr. Welch.
    Mr. Platts. Thank you, Mr. Chairman.
    Mr. Welch. Thank you, Mr. Chairman.
    Mr. Cohen, I just want to try to summarize to see if I 
understand this.
    First of all, on these madrassas--and, Ms. Curtis, you, 
too--there is a question of whether there is foot dragging by 
the Musharraf government or political weakness, so that even if 
they wanted to do something could they. I mean, what is your 
conclusion, each of you, on that?
    Mr. Cohen. I think that what we are seeing is the Pakistani 
government employs a hedging strategy, essentially, where he is 
a friend but he is a friend with a lot of problems at home and 
there are a lot of stakeholders in his government that he has 
to cater to.
    Mr. Welch. Right, but the reason I asked this question is 
this: if it is foot dragging, then obviously more pressure from 
Washington may be advisable; if it is political weakness, then 
it will be counterproductive. We have to have some of our own 
evaluation of which it is. Which do you think it is?
    Mr. Cohen. I mean, it has been 5 years and, despite the 
rhetoric, he hasn't taken any action that he said he had, so--
--
    Mr. Welch. OK. Ms. Curtis.
    Ms. Curtis. Sir, you may not like the answer, but I think 
it is a little bit of both. I think you are looking at a 
situation where it is really a strategic decision. As I 
mentioned in my oral remarks, we saw a 45-degree change after 
9/11. Pakistan ended its official support to the Taliban. We 
saw another 45-degree change in 2004 when the Pakistan military 
spent troops up to fight in Waziristan. But we need the full 
turn. We need a complete crackdown on all militant groups, 
including those who have fought militancy in Kashmir, including 
the Taliban. And we have not gotten there yet, and there are 
many challenges to getting there. But I think President 
Musharraf deserves our support. He has shown himself to be an 
ally in the war on terrorism and we need to continue to work 
within that framework. But certainly I think skillful 
diplomacy, carrots, sticks--I think in the past we have not 
been as willing to use the sticks as perhaps we should have 
been, and that could be something that we could sharpen our 
diplomacy a bit on.
    Mr. Welch. Well, you know, I don't know what that means 
specifically. I mean, what would that mean the Secretary of 
State did tomorrow? But let me just ask, if I understand it, if 
there is some consensus. Right now our aid is about $10 
billion. My understanding is that about 75 percent of that is 
military, direct military, $6 billion, and about $15 billion is 
for other security interests and the sales of weapons systems. 
Is it the general view that you have that may be upside-down or 
that it has to be supplemented so that we are actually trying 
to build or help build an educational infrastructure, No. 1, 
and, No. 2, move aggressively into regional trade stability and 
promote trade and not just leave that to China?
    Mr. Cohen. That is my view, sir. I mean, we are referred to 
often as a fair weather friend, China as an all weather friend. 
China has had 22 trade deals with Pakistan in 2005.
    Mr. Welch. OK. Mr. Kojm, how about you?
    Mr. Kojm. I would agree with your observation. We need 
balance. We don't have balance. There is severe imbalance in 
the nature of our assistance. We need a broader relationship 
that must include the economic components.
    Mr. Welch. All right. Doctor, how about you?
    Ms. Ahmed. It is that imbalance that really in some ways is 
adversely affecting American perceptions in Pakistan. Most 
people here see the assistance coming but they see it go 
directly to the military.
    Mr. Welch. Right.
    Ms. Ahmed. The impact on the ground, and those figures were 
given in comparative terms per citizen per year, how much of it 
is effective enough. Trade, absolutely. I think that is a very 
important relationship that has been neglected and perhaps 
should be focused on.
    But again let me say this: it doesn't matter how much the 
balance is changed, it does matter who it goes to. If it goes 
to President Musharraf not to the Pakistani people, it is not 
going to have an impact.
    Mr. Welch. Thank you.
    I yield my time.
    Mr. Tierney. Thank you, Mr. Welch.
    Mr. Shays.
    Mr. Shays. In 5 minutes I would like to accomplish three 
tasks. One, I would like to share my concern about national 
security. My sense is that a greater U.S. presence in Pakistan 
is not one that would be appreciated and that, because of a 
lack of real law and order, our folks are at risk.
    Another issue I want to get to is, Dr. Ahmed, you are 
basically responsible for my view that, whereas I thought 
Musharraf was trying to push people and the government away 
from being religious, that he actually overthrew a non-
religious government. At least that was my interpretation of 
what you had said to me before. I would like to speak about 
that. I would like all of you to comment.
    And my third concern relates to religious freedom. I find 
it somewhat ironic that, you know, in our country where we have 
religious freedom we are telling them in their schools and so 
on what they can teach and so on. I mean, I realize why, but it 
seems to me that it would be highly offensive to them to say 
you stay out of our culture and you stay out of what we teach 
in our church schools and so on.
    So if you could talk to security, if you could tell me why 
I should like Musharraf and want to see him stay and want to 
prop him up, and if you could speak to the issue of security.
    We will start with you, Dr. Ahmed.
    Ms. Ahmed. Thank you, sir.
    Starting off with the issue of security, you are absolutely 
right, it is very difficult right now, given the circumstances, 
for American nationals to walk outside a few cities. You know, 
it is really important to remember this: that in 1999, when the 
coup took place, there were no such constraints. U.S. nationals 
could travel freely, work anywhere. Why is it that since 
October 1999, the coup, and now that we have seen the internal 
security situation change from a country that was moderate to a 
country where there are major extremist threats, major terror 
threats, and that under a government that claims to have 
effectively taken every possible action it can in the war on 
terror, which leads me to your second question, which is that 
did the military overthrow a non-religious government.
    It overthrew not just a government that was cooperating 
with the United States in the war on terror. In fact, this was 
a government that actually agreed to let the United States 
target Osama Bin Laden. It had also taken action against 
sectarian terror groups, not because of the United States 
saying so but because it thought in its own interest. Was it a 
secular government in the American sense of the term? I don't 
think it was. It was moderate. It is a center right party. It 
is socially conservative.
    But here's the thing: it was an elected government. It had 
support and it could take those political risks. A military 
government depending on the mullahs can't.
    That takes me to your third question, which is: how do you 
actually restructure this relationship, as well as look at the 
cultural sensitivities of the people? Let me tell you, sir, 
that there are laws in Pakistan against hate speech. Those laws 
are not applied. What the extremist Madrassas preach is 
something which is against the law of the land. It is not 
something that the United States needs to tell Pakistan to do. 
All the Pakistan government needs to do is apply its own laws. 
Jihad, violence, sectarian hatred--these folks are breaking the 
law every day.
    Mr. Shays. Thank you very much. Why don't we go right down 
the line here as quick as we can, and maybe you can just pick 
one or two of those questions.
    Mr. Kojm. I will just pick two here. The focus of the 
Commission's work really has been on secular education, 
creating secular educational alternatives, and did not speak to 
reform of madrassas in any detail except to stop the violence.
    Now, in terms of the future leadership of Pakistan, the 
Commission spoke about enlightened moderation. These are the 
words of the president, President Musharraf. In the 
Commission's understanding of that, that means free, fair, and 
open elections. That is the stated policy of the United States. 
That is what the Commission believes. That is what the 
Government of the United States in the coming year should act 
upon and carry out.
    Ms. Curtis. I think we have seen, through the recent 
demonstrations over the dismissal of the Supreme Court Justice 
that there is definitely a hunger for democracy, more democracy 
in Pakistan. I commend to you a recent IRI poll which shows 
that the PPP, the Pakistan People's Party, commands more 
grassroots support than any other political party in the 
country, contrary to the belief or thought here that perhaps a 
free and fair election might bring the religious parties to 
power. I think that if you just look at the grassroots support 
numbers, the mainstream secular PPP still commands the most 
grassroots support.
    So it seems to me there has to be a transition back to 
democracy, and this may take some time but the United States 
needs to be encouraging in this process. Given some of the 
recent threats that we have seen from anti-state radicals--this 
is the Taliban elements in the Northwest Frontier Province--
which are increasingly using the threat of violence to close 
down girls' schools, to close down CD book shops, etc., as well 
as what we are seeing in the heart of Islamabad, this is even 
more reason for the Musharraf government to find a way to 
develop a conciliatory relationship with the mainstream parties 
that have his same vision for an enlightened, moderate 
Pakistan.
    You are right that the Musharraf government, its reliance 
on the religious parties has actually strengthened them over 
the last few years, so we need to give that some thought.
    And, just to emphasize Dr. Ahmed's point about enforcing 
the rule of law, this has not been done with regard to militant 
groups. There has been an ambivalent attitude toward how to 
handle these groups. Sometimes the groups are picked up, 
detained, they are released a few weeks later, so there is 
still this permissive environment for militant groups, 
particularly those related to Kashmir, that the government does 
need to begin enforcing the rule of law.
    Mr. Shays. Mr. Cohen, next time we are going to go right to 
left, but I do want to give you an opportunity for a brief 
statement.
    Mr. Cohen. I think that we actually have to bear more risk. 
The U.S. Government can't hunker down behind a fortress of an 
embassy. We all bear risks when we visit. You do when you 
visit. I think we could do better on that.
    Mr. Shays. Could I just say, Mr. Chairman, I have to go and 
speak on the House floor but I do want to come back, and I 
appreciate your holding this hearing. Thank you.
    Mr. Tierney. Thank you very much, Mr. Shays.
    Mr. Braley is gone. Mr. Van Hollen.
    Mr. Van Hollen. Thank you, Mr. Chairman. Thanks for holding 
this hearing, and thank you to all our witnesses this morning.
    Mr. Kojm, thank you for your service on the 9/11 Commission 
and keeping some focus on the recommendations. As you mention, 
some of those recommendations seem to be either forgotten 
recommendations, like we are addressing this morning. I think 
they are very important that we follow through, and I agree 
with your conclusion in your testimony that, unfortunately, 
with this set of recommendations we have not had much success 
to date.
    I would just like to pick up a little bit on the 
conversation Mr. Shays was having, because, as Dr. Ahmed said 
in her testimony, General Musharraf has managed to present 
himself in the west as the one thing that is really standing 
between stability and extremism in Pakistan, and that we need 
to make sure that we support him at all costs or we risk having 
religious extremists take over. But the testimony this morning 
is pretty clear, and Dr. Ahmed is unambiguous in her statement 
that he relies in many ways on the religious parties. Just to 
quote from Dr. Ahmed's testimony, ``Lacking a civilian 
constituency, Musharraf remains dependent today on the 
religious parties.''
    So it does get at this question really that we started to 
talk about in response to the last questions about really being 
insistent, from the U.S. perspective, on free and fair 
elections coming up and insisting that we allow greater 
participation in the political process.
    I agree with what you said, Ms. Curtis, about it was a huge 
mistake in the 1980's for the United States to withdraw 
essentially from Pakistan its assistance, but I guess, in terms 
of sending the signals now--and this goes to the question of 
conditioning the assistance--Dr. Ahmed suggests that we 
condition assistance to Pakistan on free and fair elections. 
The signal I understand from her testimony that would then be 
sent to the Pakistani people is not that we are interested in 
withdrawing, but that we want to be a partner with you in open 
and free elections and making sure someone cannot be the head 
of the military and at the same time the head of the civilian 
government.
    So if you could speak a little bit more to that issue, 
because it goes to the sort of global question about whether or 
not greater openness in the political process will lead to 
greater participation, will actually lead to less influence 
from religious parties if their overall influence in the 
population is actually less than sometimes appears, and allow 
voices of moderation to come to the fore, and maybe in the 
longer run that is the best strategy, because you said, Ms. 
Curtis, we have to stand behind Musharraf, and sometimes people 
interpret that I think is at all costs. In other words, he is 
the last thing standing between stability and extremism in 
Pakistan. And he has used that sort of sense effectively, and 
some of the testimony here today suggests that is really not an 
accurate presentation of the situation.
    I am interested in people's perspective on conditioning aid 
or other ways we can really send a strong message this time 
that we are serious about free and fair elections in Pakistan. 
Having been born in Pakistan, I have a little interest in this.
    Mr. Tierney. The question to Ms. Curtis?
    Mr. Van Hollen. It is for everybody. We will start with Ms. 
Curtis.
    Ms. Curtis. Yes. I just wanted to clarify, I absolutely 
agree with you that it is not accurate to say that President 
Musharraf is the only thing that stands between a stable and 
radicalized Pakistan. You are absolutely correct about that. 
And what I have indicated is that, under President Musharraf's 
leadership, the Pakistan government did make the right decision 
right after 9/11. They have handed over several senior Al Qaeda 
leaders, Khalid Sheikh Mohammed just to name one. Who knows how 
many more acts of violence would have been perpetrated 
internationally had he not been arrested.
    That said, as I indicated, we are seeing this growing 
hunger for democracy in Pakistan. I think, you know, we 
shouldn't underestimate the vibrant civil society that is in 
Pakistan, sophisticated politicians that are there. There is 
more to Pakistan, obviously, than one military leader, and we 
need to recognize that. That is why we are seeing, I think, a 
productive stance for the U.S. Government would be to encourage 
President Musharraf to move toward democracy, realizing the 
process may take some time, but we really do need to begin 
thinking about that and not being afraid that free and fair 
elections will somehow lead to radicalized regime coming to 
power. Pakistan is not Lebanon. It is not Egypt. It is not the 
Palestinian territories. The situation is a lot different. So I 
think the more people understand that and understand the 
situation in Pakistan, that we will see that we do not need to 
fear democracy and, in fact, in the long run it is going to 
help in terms of turning Pakistan into a moderate, prosperous 
state.
    Mr. Van Hollen. Does anyone have an overwhelming comment to 
make? We would be happy to hear it.
    Mr. Tierney. Mr. Cohen, you have been shut out before. I 
would like to give you the opportunity and then we will go to 
Dr. Ahmed.
    Mr. Cohen. I will just say that military leaders in 
Pakistan have a shelf life. That is what history has shown. So 
if we are not willing to encourage an opening of the democratic 
process now, then we have to at least prepare for a more 
difficult or violent transition.
    Mr. Tierney. Dr. Ahmed, are you getting ready to comment?
    Ms. Ahmed. Yes. Mr. Chairman, I think this is a very 
important issue that was raised, one of timing. For us to say 
now the coup took place in October 1999, the elections will 
take place in 2007, that the military still needs time and 
there should still be a gradual transition that, I think, is 
not the way to go. This is an election year. For the United 
States now not to be supportive of the process of a free and 
fair election would send the signal that the United States is 
not interested in a democratic transition in Pakistan. It is 
way too long a time to say well, let it be gradual.
    The first step, as I said in my testimony, as well, to a 
democratic transition is a free and fair election, and it is 
not going to be another 8 years from now. I think the 
opportunity will be lost.
    The electoral time table is now before this country, before 
Pakistan, and it is also before the United States of America. 
There are two choices for the United States right now. It can 
either stay outside the process--in other words, it will not 
support the process or it will support the process of a 
democratic position. The fence-sitting period I think is coming 
to an end. The United States has to decide its own interests, 
to see a moderate democratic Pakistan and to back a process of 
free and fair elections, or else, as I said, the opportunity in 
some ways will be lost.
    Mr. Tierney. Thank you very much. And thank you, Mr. Van 
Hollen.
    Mr. Higgins.
    Mr. Higgins. Thank you very much, Mr. Chairman. I just want 
to take it to a more macro level with respect to the Arab 
Muslim world.
    I think one thing that is profound is the demographics of 
the Arab Muslim world. I think it is a common strand through 
the 9/11 Commission's report that there seems to be a 
disproportionate focus on the here and now and not enough focus 
on the future. You know, when you look at 170 million people in 
Pakistan, disproportionately very, very young, the literacy 
rate is less than 50 percent. Males are twice as literate as 
females in that society.
    When you look at the situation in Iraq, you know, 50 
percent of the population is under the age of 18. Places like 
Iran, 75 percent of the population is under the age of 25. 
Despite the leadership of a lot of these countries 
transitioning and more permanent, the populations are very 
vulnerable to influences. I think the profound failure of 
American diplomatic policy in the Middle East is not to focus 
more attention on the future and those young people who are 
very susceptible.
    When you look at the conflict that has pervaded the Middle 
East, you know, most of these families are fatherless or they 
are disproportionately fatherless. So what these young Arab 
Muslim populations are looking for is a paternal influence, so 
it is either going to be positive or negative, and I think our 
role as a Nation has to be to promote not only a strong 
military presence but also a generous spirit consistent with 
American military policy in the aftermath of World War II, and 
helping these countries evolve. Much easier said than done, but 
my concern is for, you know, cultural violence that has been 
perpetrated on young Arab Muslims, and obviously it is in our 
best interest to find a way through education, through cultural 
exchange, and through economic development to change the 
direction there.
    So I think it is true, as the 9/11 Commission said, it is 
military struggle versus the war of ideas. It is not Bin Laden 
any more; it is those who sympathize with him. It is not Al 
Qaeda; it is Al Qaedaism. And I think the very narrow and 
myopic focus of the administration has been, you know, as 
Donald Rumsfeld had said, the measure and the success of the 
war on terrorism, are we stopping more terrorist activity than 
is being created every single day, or so I paraphrase.
    I think the answer is I think we are losing a larger 
struggle, which speaks profoundly and urgently to the need for 
a more strategic diplomatic strategy with both friend and foe 
in the Arab Muslim nations, and particularly focused on the 
emerging generations who will serve the basis for the 
leadership in those nations, as well.
    I know it is more of a general comment, but I think it is 
profoundly important. I would just like your thoughts on it.
    Mr. Kojm. Congressman, since you started with the 
Commission I think I should at least start the answer here.
    Thank you for your generous comments about the Commission 
report.
    I think your points are exactly on the mark. If you look at 
Pakistan, itself, which we have talked so much about today, 
where has the United States had the greatest influence in 
shaping popular views? There is no question about it. It is the 
assistance we provided in the aftermath of the terrible, 
terrible earthquake in Kashmir. American helicopters delivering 
aid, the wonderful logistics capacity of our young people in 
the military made a difference in people's lives. This changes 
people's views. It is emblematic of the nature of the 
relationship that the United States should have across the 
board in terms of making a difference in people's lives, 
education, economic opportunity, hope for the future.
    Ms. Curtis. Just building on those comments, yes, we did 
receive a lot of appreciation from the Pakistani people after 
our robust and rapid response to the horrible earthquake which 
occurred in October 2005 in Pakistan. Unfortunately, a few 
months later there was--not unfortunately, but what happened as 
a result of an operation that was aimed at targeting al-
Zawahiri, Al Qaeda No. 2, was that there were civilian 
casualties in that strike, and a lot of the goodwill that had 
been built up by our earthquake assistance dissipated.
    So we do have a problem, and it is a challenge that we have 
to live with, in that there are people who hate us and who are 
not going to change and who are plotting the next 9/11 who we 
need to target and we need to handle a certain way.
    On the other hand, we need to show, as you said, our 
generous spirit to the large majority of the population, you 
know, that doesn't support violence against Americans. There 
has been a new poll out by worldpublicopinion.org that came out 
just about 2 weeks ago which shows the majority of Pakistanis 
do not support violence against the United States, but they do 
sympathize with some of the goals of Al Qaeda.
    So I think what I am trying to say is there is really a 
dual approach, and I agree totally with you that we need to 
focus more resources on these kind of people-to-people 
exchanges, assistance issues, because we do see that it does 
make a difference in people's opinion of America when we act 
out of sheer goodwill and demonstrate our interest in the 
betterment and development of the people, themselves.
    Mr. Cohen. I would just add that the poll that Ms. Curtis 
cited also said that only 2 percent of Pakistanis who were 
surveyed believed Al Qaeda was behind 9/11, and if that is the 
premise of our posture there is that we are there and we are 
giving the assistance because of 9/11, then we start to see the 
problem.
    I think after 9/11 America began exploiting fear and anger, 
and we need to get back to exploiting optimism.
    Mr. Tierney. Thank you, Mr. Higgins.
    I want to thank all of our witnesses.
    Do any of the Members wish to ask a followup question at 
all? I don't want to shut anybody off. But, failing that, I 
would just like to close with one group of thoughts.
    Obviously I think we have all seen the importance of 
education and ramping up our attitude about educational aid to 
Pakistan and trying to make sure that we do that in an 
appropriate way that doesn't try to interfere with the reform 
of the madrassas so much as make sure we put up good viable 
public institutions as an alternative and make sure that the 
Musharraf government does take action against the more radical 
extremist madrassas on their own.
    The other aspect of that is, of course, we need free and 
fair elections, and how do we go about making sure the U.S. 
position is consistent and clear on that.
    I would like to ask Dr. Ahmed just one last question on 
that. If we are going to assist in free and fair elections, 
does that necessarily mean that they have to insist on the 
return to Pakistan of the leaders of two of the major parties, 
Ms. Bhutto and Mr. Sharif, both of whom have outstanding legal 
matters against them, and I think some people might see that as 
interference of the United States in domestic matters, or will 
a free and fair election be possible without their return? Can 
you give us a little perspective on that?
    Ms. Ahmed. Thank you, Mr. Chairman.
    On that particular issue of an even playing field for all 
the political parties, if there are legal matters against that 
would hamper the return of Benazir Bhutto and Nawaz Sharif, 
well, the Pakistan government has to deal with those legal 
matters. But for the United States to say that we will not 
support the participation of major party leaders in an 
electoral exercise would also be problematic. By just 
specifically supporting a level playing field for all the 
political parties--in other words, the removal of all 
restrictions on freedoms of association and expression--that, 
alone, I think sends a clear enough message to the Pakistan 
government.
    I would say, though, that the United States is already 
engaged with the Pakistan government as far as the election 
process is concerned, but not quite in an effective way, 
because it appears at the moment the only engagement goal 
taking place through USAID is with the Election Commission of 
Pakistan, which is, after all, not autonomous and not 
independent. So there are already mixed messages being sent, 
which is why the necessity, as you said, very clearly of 
clarity of that message, that the United States will support a 
free and fair process.
    Mr. Tierney. Thank you, Doctor.
    Mr. Lynch, would you like to ask some questions before we 
close?
    Mr. Lynch. I would, Mr. Chairman.
    Mr. Tierney. Five minutes.
    Mr. Lynch. Thank you, Mr. Chairman. I appreciate your 
having this hearing.
    I, like several members of this committee, have just 
returned from an area that is seeing a lot of activity from the 
Taliban right on the Afghanistan-Pakistan border near 
Waziristan.
    I have a couple of questions. One is sort of a long-term 
question and it deals with some of the situations we are seeing 
with the Taliban-connected Madrassas and other radical Islamic 
madrassas. Is there right now an honest broker or an entity 
that we could support? Let's face it, the United States has 
lost any credibility that it has had in that part of the world, 
so our opportunity to go in and offer a competing model to the 
madrassas right now openly would be very difficult. I am just 
wondering if there is an entity or a movement within Pakistan 
that we could support either openly or clandestinely that would 
offer a competing model to the more radical madrassas. I feel 
we have probably already lost the youngest generation in 
Pakistan already because we really haven't had a strong 
competing model and we have been beaten to the punch.
    So that is the first half of my question. I would just like 
to get a sense of what the panel thinks.
    Mr. Tierney. Mr. Cohen, why don't we start with you.
    Mr. Cohen. Well, it is not a political organization, but I 
think the rural support development programs that exist there 
succeed for the same reasons the madrassas do, which is they 
have local knowledge and people see that they are part of the 
community. From what I have seen--maybe others can comment--
they have been successful.
    Mr. Lynch. I am sorry? Can you repeat that again?
    Mr. Cohen. Sure. There is a rural support development 
network which has Pakistani mobilizers in communities, and they 
do building schools, building roads, very grassroots types of 
activities, but they are spread out through a fair swath of the 
country, and people are from those communities and that is what 
gives them credibility.
    Mr. Lynch. OK. Thank you.
    Mr. Tierney. Would the gentleman yield for a second? Who 
sponsors those people? I mean, who are they?
    Mr. Cohen. They get funding from a number of donors, 
including USAID, including the World Bank, Asia Development 
Bank, so it is an indigenous organization, though, I believe.
    Mr. Tierney. Thank you.
    Ms. Curtis. I had the opportunity when I was in Pakistan 
several years ago to meet with the Baluchistan rural support 
program which he was talking about, and they are doing good 
grassroots work. The Aga Khan Foundation is another private 
foundation that is doing a lot of good work on the education 
front.
    I think one thing we have to look at is the overall 
government effort, as well. As I indicated in my testimony, 
there is need for major reform of the sort of overall education 
bureaucracy in Pakistan. As I mentioned, the World Bank spent 
billions on Pakistan in the 1980's and 1990's without 
substantially increasing enrollment rates, literacy rates, etc. 
So we need to think very carefully about the organizational 
setup of the education system and think about the good work 
that is being done at the local level, and how could we sort of 
organize that and bring that together so that it is a more 
systematized setup rather than having, you know, a bunch of 
diverse private efforts.
    Mr. Lynch. Thank you.
    Mr. Kojm.
    Mr. Kojm. Thank you. I would really defer to my colleagues 
on the panel, especially Dr. Ahmed, on the best local 
institutions for us to work with.
    Mr. Davis of Illinois. Dr. Ahmed.
    Ms. Ahmed. There are any number of local citizen-run 
initiatives in Pakistan where that model we were talking about 
is already being applied with huge success in some of the 
poorest of cities. I give you one example, which is called the 
Citizen's Foundation School System. It is actually run in the 
poorest of slum areas where the children would be more 
susceptible to either being taken in by the madrassa managers 
because their parents can't support them, or to those kinds of 
influences. These schools, by the way, are as good as some of 
the best American schools, run in the slum areas of Pakistan.
    So it is not as though the madrassa don't exist, but I 
agree with Lisa. I think it is really important that the public 
school sector is where the focus needs to be. The state needs 
to reform the public school sector. It needs to make that, 
because that is where the largest number of children will go. 
It needs to make that more viable, more sustainable, to give 
the children a sense of direction but also skills so that they 
can be productive citizens in the work force.
    I would want to add that I don't think you should be so 
despondent about the youth of Pakistan. You would be surprised 
that the vast majority, despite the poverty and despite the bad 
winters, the vast majority of Pakistanis, barring a tiny fringe 
radical element, are moderate, democratic, and support all the 
ideals that the United States also believes in.
    Mr. Tierney. Thank you, Mr. Lynch.
    Mr. Lynch. Thank you.
    Mr. Chairman, if I could, just one final question for Dr. 
Ahmed.
    Mr. Tierney. Sure.
    Mr. Lynch. Dr. Ahmed, you note in your testimony that, 
``The choice that Pakistan faces is not between the military 
and the mullahs, as is generally believed in the west, 
including the United States; it is between genuine democracy 
and a mullah military alliance that is responsible for the 
religious extremism that poses a threat to Pakistani, regional, 
and international security.''
    Could you talk about this point? This is hitting the nail 
on the head right here about what the alternatives are and who 
we can make our alliances with. I would just like to hear your 
remarks on that.
    Ms. Ahmed. Thank you, Congressman, because I think that is 
where the problem lies in U.S. policy at this point in time, 
not quite understanding that it isn't the military as the only 
partner in the war on terror, but actually if the United States 
was to adopt the right policy directions now, or at least tweak 
its policy directions, it will be the Pakistani people. Why I 
say that is simply this: what we have seen in the past 8 years, 
really, under General Musharraf is the mullahs come into their 
own, not the mullahs being sidelined by the military. What we 
have seen is the moderate parties being sidelined by the 
military.
    As a result of this partnership between the military and 
the mullahs, two out of the four state governments of 
Pakistan--unprecedented, by the way, in this country's 
history--are in the hands of the mullahs. Are we then saying 
that we want to keep the status quo or change it? How can we 
change it, and what are the most reliable partners the United 
States can find? Trust me, Congressman, it is the Pakistani 
people who are the most trusted partners, for a very simple 
reason: if they want free and fair elections, they would vote 
for the moderate parties who would have the best partnership, 
largely because they would, A, have legitimacy; B, the support 
of their constituents; and, C, share the same goals.
    There is a Charter of Democracy signed between the two 
major parties, and I would suggest that perhaps you should have 
a look at it. These are the two major parties that would, in a 
free and fair election, form a government and be the largest 
party in opposition.
    The charter specifically says that they will fight 
extremism and terrorism in Pakistan's national interest, and 
that is exactly what the United States should be looking for, 
not a quid pro quo, we will give you so you will give us, but a 
commitment to eliminating terrorism and radicalism in a 
strategic country, which is absolutely essential if the war on 
terror is to succeed.
    Mr. Lynch. Thank you. Thank you, Mr. Chairman. I yield 
back.
    Mr. Tierney. Mr. Lynch, we have copies of that charter if 
you or any other Member would like to have a look at it, as 
well.
    I want to thank all of our witnesses today for their time 
and for the valuable testimony. I think it was certainly a help 
to all of the Members.
    I also want to thank the U.S. Mission in Pakistan for 
assisting our videoconferencing of Dr. Ahmed to the hearing, 
our friend Zharzhay Peter Boney for his cooperation in that.
    I want to say one last thing. The subcommittee invited 
representatives of the U.S. Department of State and the U.S. 
Agency for International Development to participate in today's 
hearing, specifically invited Mr. John Anthony Gastright, Jr., 
the Deputy Assistant Secretary for South Asian Affairs at the 
State Department and Mr. Mark S. Ward, Senior Deputy Assistant 
Administrator of Asia and the Near East at USAID.
    These officials were invited to testify, but the State 
Department and USAID declined our invitation. It seems that 
these agencies expressed an unwillingness to address any issue 
raised by the first panel in close proximity to the first 
panel's offerings. We find that highly questionable and 
unacceptable, but rather they insisted on testifying first. We 
are not in the habit of having the administration or anybody 
else set the schedule of the agenda for our hearings. We think 
it was important to hear what today's witnesses had to offer 
and then to hear from people in the State Department and USAID 
as to what they were doing in contrast to the comments we 
heard.
    So after this hearing I will talk to other members of the 
subcommittee to determine whether we are going to give a second 
opportunity for those individuals to testify at some later 
hearing on that.
    Without objection, the subcommittee stands adjourned. Again 
I thank all of our witnesses and participants today.
    Dr. Ahmed, thank you for joining us long distance.
    [Whereupon, at 12:10 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
